<html>
<title> - STRATEGIC COMMUNICATIONS AND THE BATTLE OF IDEAS: WINNING THE HEARTS AND MINDS IN THE GLOBAL WAR AGAINST TERRORISTS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]






                         [H.A.S.C. No. 110-68]

                    STRATEGIC COMMUNICATIONS AND THE

                  BATTLE OF IDEAS: WINNING THE HEARTS

                      AND MINDS IN THE GLOBAL WAR

                           AGAINST TERRORISTS

                               __________

                                HEARING

                               BEFORE THE

    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 11, 2007

                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                  U.S. GOVERNMENT PRINTING OFFICE
43-849                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001







    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                    ADAM SMITH, Washington, Chairman
MIKE McINTYRE, North Carolina        MAC THORNBERRY, Texas
ROBERT ANDREWS, New Jersey           ROBIN HAYES, North Carolina
JIM COOPER, Tennessee                JOHN KLINE, Minnesota
JIM MARSHALL, Georgia                THELMA DRAKE, Virginia
MARK UDALL, Colorado                 K. MICHAEL CONAWAY, Texas
BRAD ELLSWORTH, Indiana              JIM SAXTON, New Jersey
KIRSTEN GILLIBRAND, New York         BILL SHUSTER, Pennsylvania
KATHY CASTOR, Florida
                 Bill Natter, Professional Staff Member
               Alex Kugajevsky, Professional Staff Member
                     Andrew Tabler, Staff Assistant

















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, July 11, 2007, Strategic Communications and the Battle 
  of Ideas: Winning the Hearts and Minds in the Global War 
  Against Terrorists.............................................     1

Appendix:

Wednesday, July 11, 2007.........................................    25
                              ----------                              

                        WEDNESDAY, JULY 11, 2007
 STRATEGIC COMMUNICATIONS AND THE BATTLE OF IDEAS: WINNING THE HEARTS 
             AND MINDS IN THE GLOBAL WAR AGAINST TERRORISTS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     1
Thornberry, Hon. Mac, a Representative from Texas, Ranking 
  Member, Terrorism, Unconventional Threats and Capabilities 
  Subcommittee...................................................     2

                               WITNESSES

Kramer, Franklin D., Former Assistant Secretary of Defense for 
  International Security Policy..................................     5
Wells, Dr. Linton, II, National Defense University...............     9
Zalman, Dr. Amy, Science Applications International Corporation 
  (SAIC).........................................................     3

                                APPENDIX

Prepared Statements:

    Kramer, Franklin D...........................................    40
    Smith, Hon. Adam.............................................    29
    Thornberry, Hon. Mac.........................................    30
    Wells, Dr. Linton, II........................................    49
    Zalman, Dr. Amy..............................................    32

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:
    [There were no Questions submitted.]
 
 STRATEGIC COMMUNICATIONS AND THE BATTLE OF IDEAS: WINNING THE HEARTS 
             AND MINDS IN THE GLOBAL WAR AGAINST TERRORISTS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
        Terrorism, Unconventional Threats and Capabilities 
                                              Subcommittee,
                          Washington, DC, Wednesday, July 11, 2007.
    The subcommittee met, pursuant to call, at 2:46 p.m., in 
room 2212, Rayburn House Office Building, Hon. Adam Smith 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
  WASHINGTON, CHAIRMAN, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Smith. I think we are going to go ahead and get 
started, if we could have everybody take their seats, actually. 
Sorry, we should more formally greet the witnesses. I apologize 
for that. It is just that we have votes coming up here 
imminently. So I wanted to try to hopefully get our opening 
statements in and your opening statements in, get as much as we 
can in in the short period of time that we have.
    Thank you all for joining us. I particularly want to thank 
Representative Thornberry for his interest in the subject 
matter and our strategic communications efforts on the war on 
terror.
    And it is something that has been of particular interest to 
this subcommittee, which basically is the ideological battle 
that is attached to the military battle. And I think that we 
really need to focus more on that in our government.
    And we cannot possibly win the battle that we are fighting 
by simply killing every terrorist that we see. This is a battle 
of ideas as much as it is a military battle.
    We have to get to the point where people don't want to 
follow al Qaida, don't want to sign up for their ideology and 
commit those violent acts. If it is a game where we are simply 
trying to always stop them before they get to us, it kind of 
puts us on a treadmill that is picking up speed constantly. 
That is not something we can succeed at.
    We need to get our broader message out there. And, without 
question, we have the better message. Al Qaida represents a 
violent, totalitarian ideology that is simply trying to 
subjugate people under the guise of religion, which really has 
very little to do with what they are talking about. It has more 
to do with control. You know, we have seen what the Taliban did 
in Afghanistan--not something that people are signing up for.
    We, on the other hand, offer a message of freedom and 
opportunity. I think we have the better message in any culture, 
be it the West or the Muslim culture or wherever. We have the 
ability to deliver a message that offers a better way.
    As strongly as I feel that, I also feel that, at this 
point, we are by and large losing a public relations (PR) war 
to Osama bin Laden in far too many parts of the world, even in 
some cases with our allies, who have shown reluctance to jump 
on full-bore with our effort. For one thing, they don't even 
like the fact that we call it the global war on terror, and I 
tend to agree with them. I think there would be a better way to 
phrase this, in terms of how we pull people together. And 
certainly within the Muslim world, America is not popular. We 
are not winning the battle there.
    So what we want to find out today and look forward to your 
testimony is, you know, what are we doing to improve that 
message? What is the message that we are trying to send out?
    And of particular interest to me is who is in charge of it. 
Because there are a lot of different pieces here: The Central 
Intelligence Agency (CIA) has a role, the Department of Defense 
(DOD) has a role, the State Department has a role, various 
different White House agencies, the Counterterrorism Center. 
Who is in charge? How are we delineating that message?
    Because, to some degree, this is something that all 
politicians understand: Develop a message and deliver that 
message. That is what we did to get here--on a much smaller, 
less dangerous scale, I might add. But it is a basic 
communications message, saying that we all understand and we 
want it to work better than it does right now.
    It is a major, major commitment of this committee. And I 
know it is also a major commitment of my ranking member, Mr. 
Thornberry, who has worked on this extensively.
    And with that, I will yield to Mr. Thornberry for his 
opening statement.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 29.]

STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM TEXAS, 
     RANKING MEMBER, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Thornberry. Thank you, Mr. Chairman. And I appreciate 
your comments. But I agree with everything you said.
    One of the reasons I am so interested in this is because I 
think it is so critical to our country's security. We obviously 
face a determined, ruthless, adaptable enemy who uses terrorism 
as a tactic. But we will not defeat that enemy with military 
power alone. We have to engage in the battle of ideas, and we 
have to engage successfully.
    But the reason I am so motivated about this is because I 
know of no one who thinks we are doing so successfully, or 
maybe even competently, at the current time. And there have 
been study after study, report after report, that talk about 
how important it is, and yet we seem to be a lumbering 
bureaucracy, moving to be slightly better. But as you point 
out, in too many parts of the world, I am afraid, we are 
losing.
    My view is that you have to begin with an understanding of 
the enemy, a deep understanding of the enemy, and then develop 
specific approaches to then address that understanding, to 
delegitimize his view of the world, offer an alternative, and 
then have effective methods and perseverance enough to actually 
implement what you are trying to do.
    And I think that is what brings us to this hearing.
    Mr. Chairman, strategic communications--one of those words 
that gets slapped around--some people think it means we ought 
to hire better PR people. Some people say that it is better 
slogans, more effective commercials on television or radio. I 
think it is much more and much deeper than that.
    I have an article in my written statement from a colonel 
who used to be with Central Command (CENTCOM), who describes it 
as synchronizing public diplomacy, public affairs, public 
relations, outreach, information operations, psychological 
operations, so that you get the right message to the right 
audience in order to help shape perceptions.
    As you mentioned, that does not mean that it is the job of 
one department of government--or, in my view, it is even 
government alone. I think we have to bring in the considerable 
expertise of the private sector to help do it.
    But the point is, we have to do it. We can't fight this 
battle with bullets alone. And I think we have to do a lot 
better.
    Defense Science Board study in 2004 said that ``strategic 
communications is a vital component of our security. It is in 
crisis and must be transformed with a strength of purpose that 
matches our commitment to diplomacy, defense, intelligence, law 
enforcement and homeland security.'' That is what motivates me, 
Mr. Chairman, to try to put more light on it.
    I appreciate very much the witnesses and the work they have 
done in this area. And I am especially looking forward to their 
suggestions on what we can do in Congress to help give it the 
same strength of purpose that matches our commitment in those 
other areas.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 30.]
    Mr. Smith. Thank you very much. I appreciate that.
    With that, I will turn to our witnesses. We have three this 
morning: Dr. Amy Zalman, the Honorable Franklin D. Kramer and 
Dr. Linton Wells.
    We will start with Dr. Zalman, who is with SAIC but has 
written, taught and done considerable research in the area of 
strategic communications, particularly focused on the Muslim 
world.
    And I look forward to hearing your testimony.
    Dr. Zalman. Thank you.
    Mr. Smith. You can go ahead and get started. I think we can 
get through. There are a few a minutes before we have to go.

STATEMENT OF DR. AMY ZALMAN, SCIENCE APPLICATIONS INTERNATIONAL 
                       CORPORATION (SAIC)

    Dr. Zalman. Chairman Smith, Congressman Thornberry, thank 
you for the opportunity to present my observations on strategic 
communications today.
    As Bill Natter pointed out in his introduction to the 
session, my written testimony speaks primarily to the question 
of strategic communications content.
    It has been an American objective to tell our story to the 
world. There has been less focus to date on what that story 
really is and how to construct it so that others want to listen 
and participate in shaping its ending.
    The 2007 U.S. National Strategy for Public Diplomacy and 
Strategic Communications lays out a number of ways in which 
American voices are about to be amplified throughout the world. 
But what are these voices going to say that makes people want 
to keep listening? Is it enough to recite lists of American 
good works, no matter how true? Is more necessarily better?
    Potentially, but not inevitably. Indeed, new efforts are as 
reasonably doomed to failure as some of those of the past five 
years if, in my view, the U.S. does not take seriously the need 
to reaffirm its understanding of the simple: what it means to 
tell a story.
    What is a story? A story is a structured way of telling 
events and of making sense of what happens to us. It has a 
beginning, a middle and an end. Individuals tell stories; so do 
collectivities.
    When I think of stories, I think, of something that we 
tell. But at the collective level, stories also tell us. They 
tell us who we are, what we believe and idealize, who is one of 
us, who is an outsider, how to behave and how not to behave. 
This is their strategic function.
    We are not only shaped by the stories we inherit, we also 
contribute to them: what we tell our children, how we 
celebrate, what we valorize, what we think of as right and 
wrong, and how we behave. Through these activities, we 
participate in story-telling.
    Community stories do not so much have endings as they do 
proposed futures. This, I think, is where strategic 
communications takes place: at that point between present and 
future.
    Communications that are designed to influence can be 
inserted into that moment, so that we shift one future and 
propose an alternative. But we insert into a story that is 
ongoing, not into a vacuum and not into an entirely new place.
    From this, a few thoughts: One, strategic communications 
does not take place in a vacuum. Everyone already has a story. 
When people turn away from American messaging efforts, it may 
not always be a sign of hostility, but rather, it is a sign 
that they don't need someone else's story, they already have 
their own.
    I think we may better understand past failures and future 
possibilities if we simply grasp that there are already other 
stories in existence.
    Two, a story must be credible. This has, of course, been 
said ad infinitum in the past five years. But I would like to 
explain what I think ``credibility'' means when we think of 
communications in terms of stories.
    In this case, ``credibility'' does not mean either 
scientific veracity nor necessarily verifiable authority. What 
it means is the ability to identify with a story and, in fact, 
with characters in a story, to look up and go, ``Wow, I see 
something that resembles someone like me doing things that I 
think would be good and right to do.''
    What this means for strategic communications is it has to 
be built out of ingredients and values that people already 
have. They cannot come from outside. They must come from inside 
an existing community, for people to be spoken to.
    And three, listening remains the most important task before 
the United States. The opportunity to gain from listening to 
others has not yet been as well-exploited as it could be.
    Here is one way we may use listening. Take our best ideals, 
find out, listen for, go and actively unearth what those terms 
already mean to others. What is your idea of progress? Where in 
your history are there events or processes that you would cast 
as democratic? What is your vision of your future? What is the 
meaning of the best universal ideals in your idiom?
    I am hopeful that knowing these and having some facility 
with using them in the idioms of others is the beginning of 
being able to communicate truly well.
    Thank you.
    [The prepared statement of Dr. Zalman can be found in the 
Appendix on page 32.]
    Mr. Smith. Thank you very much.
    Mr. Kramer, I think we will go ahead and give you a chance 
to get your testimony in, as well, before we have to go vote. 
So I will keep my introduction of you short, so that you can 
speak. Go ahead.

    STATEMENT OF HON. FRANKLIN D. KRAMER, FORMER ASSISTANT 
     SECRETARY OF DEFENSE FOR INTERNATIONAL SECURITY POLICY

    Mr. Kramer. Thank you very much, Mr. Chairman, Mr. Ranking 
Member. Thanks for the opportunity to be here.
    I won't belabor the point that each of you have made, that, 
although we are an information superpower, we are not winning 
the war of ideas. I think that is the basis for this hearing.
    And I won't belabor the point, though I believe it deeply, 
that we have a very good, really an excellent, story to tell. 
So the question is, why aren't we winning?
    And we are not winning despite the fact--and I think the 
committee has some hearings planned--that the United States 
government does communicate. So what is the problem?
    Well, one thing is it is a complex world out there. There 
are many other messages. There are multiple cultures; there are 
multiple audiences. Actions, especially violent actions, speak 
louder than words. And it is a difficult problem to find the 
right messengers and the right mechanisms to get our story 
across.
    More specifically, a lot of what we do in the U.S. is what 
I would call mass messaging. And mass messages are good, if the 
audience is ready to listen, if they are already tuned into the 
channel. But it is not for the people who haven't tuned in yet, 
not for the unconverted.
    So, for example, if you have a Presidential address on the 
Middle East, naturally it goes to the American people. But in 
Jakarta or Islamabad, it is heard differently. It is in the 
wrong language. It is covered differently. The people come with 
different preconceptions.
    The U.S. also, because we have multiple interests, has 
multiple messages, so it is hard for us to focus. We are the 
superpower. We are always going to have multiple messages. So 
we have to deal with that problem, because with multiple 
messages comes lack of clarity, overlapping. So we have to 
think about differentiation, audience segmentation, ways to get 
our point to the right people.
    And those right people, if you will, the target audience--
although I am not sure that is precisely right, because the 
audience participates; it is a two-way street--they do live in 
their own context. They already have multiple messages coming 
in to them. And so, some of those people really don't want more 
information. Some will only take information that is congenial 
to their attitudes already.
    And there are a lot of, if you will, anti-U.S. channels out 
there already. There is a very recent Radio Free Europe study 
which points out that both the Sunni insurgency in Iraq and al 
Qaida make a great deal of use of communications. They do so 
through Web sites. And those are amplified by Arab media.
    And the real point that they made--and this is a quote--is 
that there is a real demand for this in the Arab world. So 
people are listening for those anti-U.S. messages, and we have 
to recognize that and overcome that.
    Even for those who want to listen when we put out a 
message, they may hear it differently than we intend it to be 
heard. It is because, again, they come with their own culture, 
their own attitude, their own preconceptions. And so, exposure, 
if you will, is not enough all by itself.
    If you put that in the U.S. context, a Rush Limbaugh 
listener is not going to be much persuaded by Michael Moore and 
vice versa. So it is not enough just to increase the flow of 
information. You have to think about how to make the 
information effective.
    Well, you also have to recognize that our actions have 
consequences. Many people have said--it is a truism--actions 
speak louder than words. So our policies, their impact, make a 
big difference. And you have to cast the words in light of the 
actual policies.
    And we have to recognize that opposition entities like al 
Qaida will take those policies and use them for their own 
purposes. The al Qaida narrative, which, briefly, is that the 
West is attacking the Muslim world, they draw heavily on what 
is going on in Iraq to support their narrative. It is not true, 
but it is how they use the activity.
    So what do we do? Well, I have eight suggestions for the 
committee.
    The first is I think we need a substantially greater focus 
on other cultures and other societies. We need to be able to 
more clearly differentiate our audiences. We need to figure out 
who are, if you will, the influencers in those societies.
    In the book, ``The Tipping Point,'' Malcolm Gladwell talked 
about what he called mavens who validate messages, connectors 
who link messages, the link persons, and salesmen who sell 
messages. And whether or not that is the exact right set of 
categories, there are influential people in society, and we 
need to look to them and talk to them and get them to talk in 
their own society.
    We also need to think about how to make a message 
effective. For example, do you focus on individual values, or 
do you focus on group values? It is different in different 
societies.
    What is the role of religion in messaging? If you look at a 
Sunni insurgency message, it is wrapped in religious metaphors. 
What should we do? We need to at least think about that.
    As implied by that, my second point is we need more 
experts--more experts focused on culture, more experts focused 
on geography--who are working in the communications world. We 
need to be able to build what I would call a societal map for 
communications.
    And to those experts, we need other disciplines: marketing, 
psychology and expertise in the use of T.V. and Internet and 
radio. Those are multiple disciplines. They are not taught in 
basic training. They aren't taught in advanced training. And 
they are not taught in foreign service school. So we need to 
think about how to bring those kind of people in.
    I would not suggest we don't have any; that would be a 
mistake. But we don't have enough. And we need to expand that.
    We also need to think about the fact that multiple theaters 
require multiple message campaigns. Indonesia, which is part of 
the Muslim world, is not the same as Pakistan, which is part of 
the Muslim world; is not the same as Egypt, which is part of 
the Muslim world. We need to think differently about how to get 
our messages across in different places. We need a regional and 
focused kind of approach.
    As is implied by all that, we need more resources. I would 
strongly suggest that we look hard at the Broadcasting Board of 
Governors (BBG) and their various T.V. and radio stations, 
increase there; the State Department's public diplomacy budget. 
We need to do a lot more with respect to the Internet, Web. The 
Government Accountability Office has said that our embassies 
are very poor at sending out messages. We need to increase 
their capacity. We need more regional efforts----
    Mr. Smith. I apologize, sir. Unfortunately, we have to go 
vote. We are down to a couple of minutes here. So I will stop 
you on your fourth point, and we will have four more when we 
come back.
    It is going to be about 45 minutes before we come back, for 
which I apologize. But----
    Mr. Kramer. We know where the cafeteria is. [Laughter.]
    Mr. Smith. Okay.
    Mr. Thornberry and I, certainly I think we will--other 
members of the committee who are probably over there voting now 
will be back. And we look forward to hearing the rest of your 
testimony, and yours as well, and asking questions.
    So we will be back as soon as we can.
    [Recess.]
    Mr. Smith. Well, thank you for your patience. We will go 
ahead and get started again. I am pretty sure that Mr. 
Thornberry is coming back in just a second. And, you know, I 
mentioned it to a few other members. See if we get a few other 
folks here.
    But, Mr. Kramer, I believe you were in the middle of----
    Mr. Kramer. I was working my way through my points, as it 
were. I think I had made four, so let me just make four more 
and get off the podium here.
    The fifth point I would make is that we need to take a 
long-term as well as a short-term view. Especially in the DOD, 
there is a tendency to be short-term. And it is understandable, 
because you have to deal with the consequences of violent 
actions. But what we are really talking about is changing 
attitudes, and attitudes change over time.
    And just, again, to use an example, think of the difference 
in attitudes toward cigarette smoking in the U.S. It took 30 
years. It takes time. And we need to have information 
activities that are long-term.
    The department, the DOD, for example, runs something called 
the Southeast European Times. It is in nine languages. It is an 
information site. Or it runs another one called Magharebia. It 
is in three languages. All those are are news sites and 
information and analysis. They are not going to solve the 
problem today. But they are that background kind of information 
that gives you a possibility.
    The sixth point I will make is that, although it is true 
and I certainly subscribe to the fact that facts speak louder 
than words, it is possible to explain facts. And I think we 
really need to increase both the training and the resources for 
our combat forces to help them in this arena.
    It is good, and the committee's work with Special 
Operations Command (SOCOM), which runs psychological 
operations. It is good what strategic communications (STRATCOM) 
does. But when you are in counterinsurgency, you are in 
stability operations, it is really the folks on the ground who 
are doing it. So that is your brigade, your battalion, your 
company, your platoons.
    And they need, of course, to get to the center of gravity. 
The center of gravity is the people. That means they need to be 
able to communicate. And they really don't have sufficient--I 
wouldn't say none at all, but they don't have sufficient 
training. They don't have sufficient resources. They don't have 
sufficient capacities when they go in. So I think that is 
awfully important.
    The seventh point I would make is that we really need to 
use much more greater use of a partnership approach with allies 
and partners. If you are a business, you simply would not go 
into another country without a local advisor or a local partner 
or a joint venture or something like that. You would know you 
would be lost.
    And we need to have that, what I would call, fingertip feel 
for the country. And you get that when you have deep, local 
knowledge. Now, Americans can get that of countries, but you 
have to live there, work with them and the like.
    It is not a Washington approach; it is a in-country 
approach. And we actually do it on the military side. And we 
even do it on the diplomatic side. We need to do it on the 
communications side.
    And the last point I would make is that, although I think 
this hearing and others I know the committee is holding is 
enormously valuable, it would be terrific if the Congress as a 
whole could take, what I would call, a comprehensive look at 
strategic communications.
    I mean, you have the jurisdictional set of issues. But, you 
know, by and large, you get along well with one another. And so 
you have got what the department is doing. You mentioned in 
your opening statement what State is doing and the BBGs. 
Putting that all together and figuring out whether we have 
enough real resources in the program.
    You know, as a benchmark, if you are a beer company in the 
U.S., you would probably spend no less than $100 million a year 
selling your beer. You know, a car company, the same way. So if 
you put that together, you know, with the number of beer 
companies, the number of car companies, you are talking real 
money.
    If you look at the recruiting budget we have for the DOD--I 
think this is right--it is about $4 billion a year. Shouldn't 
we be thinking about putting real money and resources into 
strategic communications?
    And with that, let me close. And I appreciate the 
opportunity to testify, and look forward to your questions.
    [The prepared statement of Mr. Kramer can be found in the 
Appendix on page 40.]
    Mr. Smith. Thank you very much.
    Dr. Wells, who is the Force Transformation Chair and 
Distinguished Research Professor at the National Defense 
University.
    Dr. Wells.

 STATEMENT OF DR. LINTON WELLS II, NATIONAL DEFENSE UNIVERSITY

    Dr. Wells. Thank you very much, Mr. Chairman and 
Congressman Thornberry. I appreciate the chance to be here at 
this really important topic. And I want to emphasize I am here 
in an individual capacity.
    Certainly, effective communications, strategic 
communications would be essential to winning the ``Long War'' 
just as they were in the Cold War. And it has been pointed out, 
in this area, facts, which include actions, speak much louder 
than words.
    I think there are four areas where we ought to focus on 
doing a better job. And one is communicating the nation's 
commitment to its core values. Second is reaching out to those 
who share our ideals. Third is supporting those who struggle 
for freedom, and then countering those who espouse hate and 
oppression.
    An objective of strategic communication, in fact, the 
ultimate measure of success, is the way it forced the 
advancement of U.S. policies. And this is achieved by 
influencing foreign audiences to take action that either 
support U.S. interests or to cease action that damage them. And 
the point here is that the success of strategic communication 
alone does rest with the government actions by themselves.
    There is no doubt this is very hard to achieve. You have to 
synchronize a whole series of messages. And Mr. Kramer just 
talked about messages and delivery mechanisms have to be 
aligned within the government. You have to link actions across 
organization, nations and cultural lines. You have to 
understand the impact on foreign audiences.
    And this is compounded by the rapidly changing information 
environment that relatively few people actually have experience 
in working with.
    On the other hand, the Nation does have a number of 
enduring advantages which ought to stand us in good stead in 
the long-term competition, which is what we have to focus on.
    First of all, it is the nation's openness; the opportunity 
it is perceived, I think, mostly in the world as providing; and 
importantly, the ability to learn from our mistakes. And so, a 
core issue, as Dr. Zalman has mentioned, is how to describe 
these qualities in ways that are important to people around the 
world and in ways that matter in their lives.
    The U.S. Government has done a number of things working to 
improve its strategic communication performance. And one I 
would commend to you is, as soon as the minutes come out, there 
is actually, as we speak, a two-day strategic communication 
symposium going on at National Defense University.
    It was kicked off this morning by Newt Gingrich. Admiral 
Giambastiani spoke, Karen Hughes spoke, Deputy Secretary 
England is speaking tomorrow. And it is a serious effort of 
looking at the way we address it and reflects, I think, the 
increasing importance that people are putting on this.
    As was cited at the end of May, the National Security 
Council issued the National Strategy for Public Diplomacy and 
Strategic Communications within DOD last September. Deputy 
Secretary signed out a roadmap for the execution of the 
Quadrennial Defense Review (QDR). And in the last two months, 
actually, there has been a lot of progress on implementing and 
executing that roadmap.
    That said, we still have a long way to go, and one of the 
key areas is definitional. The Defense Department has a 
definition of strategic comms, but it is not fully accepted 
across the interagency. So I would submit, until we agree on 
the definition of what we are doing, we are not necessarily 
going to align with the efforts.
    On the other hand, there does seem to be agreement that 
this is--Congressman Thornberry said that strategic 
communication actually is a process. And it is a process that 
links together a whole batch of other things, from public 
affairs to public diplomacy. Some parts of information 
operations, very importantly in the third world, visual 
information, and finds that target, and makes it available to 
foreign audiences.
    The issues are broader than just definitional. We need to 
integrate and synchronize our actions, while promoting cultural 
and organizational change across at least DOD. And the point is 
these are transformational changes; this is not a modest 
bureaucratic change. And it needs to be treated with that level 
of seriousness.
    In addition, though, as you look at these U.S. Government 
things, this is a messy business. The information environment 
is very complicated. And a lot of this is going to happen from 
the bottom up, not from top-down, coordinated actions.
    And so, again, as we pointed out, the glut of information 
in this new environment means that an information source has to 
be perceived by the audience as credible and trustworthy in 
order to capture their attention. We need to understand how to 
make our information competitive in that environment.
    And I think it is critical that decision-makers understand 
the impact of these sorts of changes.
    One related area where the Defense Department is starting 
to make progress is in the sharing of unclassified information 
outside the boundaries of the defense enterprise with several 
military partners who may or may not have security clearances. 
We have typically focused at sharing classified information 
within the department. We need to reach out, communicate, 
collaborate, translate, engage with these partners.
    This is not just a governmental effort. Strategic 
communications is much broader than that. There are many, many, 
many more messages delivered around the world about our nation 
every year through advertising, entertainment, through 
government channels.
    Unfortunately, those messages are not always positive. We 
need to understand how to deal with them. On the other hand, 
there have been effective advertising campaigns. There are 
people who know how to do this. We need to be able to tap into 
them.
    Ultimately, it is important that people perceive that U.S. 
actions are advancing their interest, not just our own. And the 
facts have to be coherent with words and also need to provide 
hope to the population in their terms for things like jobs.
    So finally, there are no simple ways ahead. We have to 
match means to ends with just a few thoughts.
    First of all, we have to define the values, the visions, 
the metrics, the strategy and the programs clearly and assess 
the probability of success honestly.
    Second, these processes need to be made more agile, 
decentralized and local. Again, a single integrated, top-down 
process will not work.
    We have to do a better job at understanding the intended 
audience, their culture, their language, their history.
    We have to be realistic about the cause of anti-Americanism 
and realistic about our ability to change this in the near 
term.
    We have to leverage new technologies in ways that allow 
much greater interaction, not just transmission but 
interaction, with audiences.
    We have to recognize that total control is not possible. I 
heard a very good description this morning that we need to 
train our people and trust them, rather than trying to manage 
and supervise them continuously.
    But in this context, then, people need to be allowed to 
make mistakes. And if I were to ask for one area from the 
Congress, is to allow our people the ability to make those 
mistakes without being necessarily hung out to dry when they 
make them.
    We have to work to align the U.S. with the public in the 
areas we seek to reach. Dr. Zalman, I think, made this point 
very well. How do we fit into their story and their idiom?
    And finally is the question, as Mr. Kramer said, of 
resources, especially, I think, in priority for exchange 
programs. As Under Secretary Hughes will point out, exchange 
programs are life-long commitments. We have actually begun 
summer camps for 8- to 14-year-olds recently in order to begin 
that bonding as soon as possible.
    Language training, cultural awareness, for DOD the 
unclassified engagement, and something else to remove the 
obstacles to allow our processes to be more nimble.
    Just a simple example: The DOD benefited enormously last 
year from the conference language in the authorization bill 
that allowed information and communications technologies to be 
included as part of rudimentary construction and repair when 
the department is doing humanitarian civic assistance.
    I mean, amazingly, it had been interpreted by a number of 
judge advocates general that you could rebuild a hospital 
destroyed by an earthquake but could not put any wiring in that 
could connect that hospital to the Internet to become a 
teaching hospital or something.
    The committee's language clarified that. And the removal of 
that impediment has been a big help to us.
    In terms of resources, what I am told, last year the 
funding for public diplomacy was about $800,000 a year, with 
another $700,000 for exchange programs.
    Two-point-nine million dollars was available for public 
opinion research, which, in the standards of the U.S. political 
campaign, even is small. So I echo Mr. Kramer's point. If you 
look at our advertising budgets, certainly we need to be able 
to be serious about this.
    Thank you very much.
    [The prepared statement of Dr. Wells can be found in the 
Appendix on page 49.]
    Mr. Smith. Thank you.
    Several questions. There is the first question in terms of 
the structure and how we are getting this message out.
    Imagine, for the moment, that in this meeting we came up 
with some great idea for how we wanted to, you know, do 
strategic communications, either the message or how we were 
delivering it. Who would you go see in the Federal Government? 
Who would be the person or the agency or the area that is 
overseeing this, in your view, as you have observed our 
efforts?
    Dr. Wells. Well, clearly, I think the responsibility in the 
government is assigned to Under Secretary Karen Hughes in 
several hats. One is as the Under Secretary of State for Public 
Diplomacy and Public Affairs. But she also shares this policy 
coordinating committee (PCC) on the National Security Council 
(NSC) of Public Diplomacy and Strategic Communication.
    DOD has stood up something called the Strategic 
Communication Integration Group, or SCIG. And this came out of 
the roadmap from the Quadrennial Defense Review. There is an 
executive committee of that made up of people from public 
affairs, from the joint staff, from Under Secretary of Defense 
for Policy. And several of those are members of this 
interagency PCC.
    Mr. Smith. And does Karen Hughes's shop sort of oversee 
that, as well? Or is that separate?
    Dr. Wells. The DOD SCIG reports to the Deputy Secretary of 
Defense, but clearly through the PCC, which is the interagency 
mechanism that is coordinated with Karen Hughes.
    Mr. Smith. Great. And how would you evaluate, at this 
point, the performance? How are they doing? What could they be 
doing better?
    Dr. Wells. So I think--let me see. I think there is 
progress being made, and there is particularly progress in the 
last of couple of months, and it is a little bit too early to 
say.
    If you look at our performance since 9/11 candidly, sir, I 
would say it has been very poor. If you look at the current 
vector, there are at least some hopeful signs.
    Again, this morning at this symposium, Under Secretary 
Hughes was talking about three main thrusts, and one was the 
exchange programs. Another was on communicating better, finding 
the mechanisms, how you get our people out to talk on Al 
Jazeera in Arabic to Arabic languages, how you get the 
embassies more engaged from the, you know, region. And then 
what they call the diplomacy of deeds, which is a focus on the 
things we are doing with public health and the comfort 
deployment, Central America----
    Mr. Smith. Disaster relief----
    Dr. Wells. Disaster relief. The Pakistan earthquake was a 
success, and the tsunami was a success. Again, Defense is 
looking at making influence operations sort of a major 
operational line of warfare, along with maneuver and 
intelligence and logistics. And if you get to that, then you 
are assigning it a priority that, you know, it has not 
previously had.
    So I think the attention and the vectors are right. It 
remains to be seen whether we can execute along these vectors.
    Mr. Kramer. Could I jump in on that?
    Mr. Smith. Certainly.
    Mr. Kramer. You know, they just put out the National 
Strategy for Public Diplomacy. You have it because Bill was the 
one who actually sent it to us. If you look at it, it is hard 
to quarrel with the document, but it is a nascent document.
    Mr. Smith. Right.
    Mr. Kramer. And the whole point here--and Dr. Wells made 
this point--is we haven't done well up to now. We are still in 
the organizational stage. And actually getting the messages out 
is very, very difficult.
    I go back to the point that the Government Accountability 
Office made about the posts. I mean, they are the people out on 
the front line. And if you look at what comes out of the 
embassies themselves, it is pretty poor, not because they are 
unintelligent people, not because they don't care, but they 
don't have the training, they don't have the resources, and 
they have other day jobs.
    So we really have a long way to go. So I would say, you 
know, heart is in the right place, but the execution is pretty 
limited.
    Mr. Smith. Thank you.
    I have more questions, but I will yield to Mr. Thornberry 
for his questions.
    Mr. Thornberry. Dr. Zalman, would you answer the question 
that we have been discussing: How well are we doing now?
    Dr. Zalman. Yes. Well, I am encouraged by this event. It 
seems to me that from the 2004 strategic communications 
document that came out to now, there is a leap in 
sophistication and in recognition of the thing that I call 
``story'' but other people talk about in other ways.
    So that two or three years ago, the entire Middle East did 
look like a big, kind of, one geographic and one, kind of, 
conceptual unit to people looking out. And now, on a regular 
basis, it is recognized that people speak different languages, 
that they need to be addressed differently, and that, as a 
matter of fact, they need to be addressed in different ways.
    And I suppose that part of that reflects the experience 
that people have now had on the ground and speaks to the need 
that you just spoke to, to have processes that come from the 
bottom up.
    But clearly, American opinion, the opinion of the world of 
the United States, remains generally in decline.
    Mr. Thornberry. Part of my frustration is we are six years 
after 9/11 and we are still grappling with beginning steps to 
wage the kind of struggle that we are in--on other than the 
military, which I don't mean to diminish.
    And part of the difficulty is, as you all have described, 
it is a cumbersome process that goes across government 
agencies. And so, you may have an NSC coordinating committee, 
but that is not exactly the best way to implement 
communications at a time when so much of it is over the 
Internet and happens in a matter of seconds.
    And I think it was you, Dr. Wells, that talked about the 
importance of training our people and trusting them to be more 
nimble. Because if you have to get a press release approved 
through the bureaucratic process, you are way behind already in 
a time when things happen so quickly.
    Some people have suggested that, in order to kickstart this 
issue, that a new organization needs to be created. Now, that 
is a typical, you know, suggestion that comes: When in doubt, 
rearrange the boxes. But let us see if any of you all have any 
opinions about that.
    And I guess the argument would be United States Information 
Agency (USIA) has been, you know, bandied about. Obviously, 
there is not the resources, not the emphasis on training there 
needs to be for people in our embassies or others.
    So a new organization that can focus better on strategic 
communication might not be as threatening as having the 
Department of Defense be in charge of strategic 
communications--some other agency out there.
    Anybody have an opinion about that?
    Mr. Kramer. I will take a shot at it, yes.
    First of all, I think it is fair to say that the Office of 
Public Diplomacy itself is, you know, something of a new 
organization, Karen Hughes's office. And it got started with 
great difficulty. As you recall, there was a prior Under 
Secretary who had a lot of problems.
    I think there are a lot of different ways to play it. But I 
would say that, wherever you put it, you have to have a lot 
more people and a lot more resources.
    And one easy way to do it sometimes is to create a, you 
know, kind of a joint task force. The NCTC, National 
Counterterrorism Center, is an example of a new organization 
that was created by melding some capacities from old ones, but 
they put them in a separate place, so they can really focus and 
so that they would have the responsibility.
    And I would think that there is some argument, which is one 
of the reasons why I encourage the committee to really look at 
this comprehensively, to create, if you will, an NCTC-like 
organization to focus on influence.
    I don't think the Department of Defense can, in any way, 
shape or form, be in charge of strategic communications, but it 
will necessarily be involved in that. And so will the State 
Department, and so will the posts.
    So when you create a new organization, you have to 
recognize that you are still going to have people out in the 
field who have great involvement. And I guess, you know, that 
is the argument, about how do you put this all together.
    As Dr. Wells said, you have a lot of players here. If you 
try to do it from a top-down point of view only, then it is 
going to just kluge up the system. You will get clogged 
arteries. So you really do have to trust people below you.
    But you could have some greater nimbleness, I think, and 
some greater focus, including by this body, you know, by the 
Congress, for resources if you had a central point.
    Dr. Wells. One of the points that Under Secretary Hughes 
made this morning--because this was asked of her. And she said, 
``Look, nothing is going to happen in the remainder of this 
Administration. So the question is, what to do next?''
    But an advantage that her structure has is that it is part 
of the policy planning process at State, whereas at least there 
was a perception that the United States Agency for 
International Development (USAID) was a distinct entity that 
was communicating a message, but none the--and something that 
has been discussed a lot is that strategic communication needs 
to be part of the overall campaign plan from the beginning of 
the policy planning, not just reacting to events as something 
goes on.
    And so there is an argument, at least, that whatever entity 
you would want to set up, whether it is independent, ought to 
have this kind of link back into the planning process.
    Mr. Thornberry. Let me touch on another area. The Defense 
Science Board study that looked at this recommended creation of 
an Federally Funded Research and Development Center (FFRDC) or 
some entity that would facilitate private-sector expertise 
being used. I mean, you think about the resources in this 
country that are available for people who want to figure out a 
message, tell a story and communicate that story. It is 
unbelievable.
    Part of what got me into this is a person who fits that 
description ended up volunteering his efforts in other 
countries. And he would like to make a greater contribution. He 
doesn't want to be a GS-11, but he is looking for a way to 
contribute.
    Talk to me a little about your view as to how we can tap 
into this expertise that exists in the United States in the 
national interest, but in a coordinated way--not everybody 
doing their own.
    Dr. Zalman. I have a small comment to make about this, 
because I actually worked in a very direct way a couple of 
years ago on a private-sector effort that was intended to 
produce materials for dissemination in the Middle East. And one 
of the problems was that, despite very good intentions by all 
involved, it ended up being very difficult to have them 
informed by necessary cultural expertise.
    So, very sophisticated and good materials produced by 
people who knew what they were doing were created. But there 
was a really complicated disconnect between people who 
understood the place and the region into which they were 
supposed to be put and the creators.
    And clearly, there are solutions to this, but I think that 
they can't be spontaneous ones, or they should be considered in 
advance of these sorts of projects.
    Mr. Kramer. You know, whether it is an FFRDC or not, I 
mean, I couldn't agree more with that point. It really is an 
interdisciplinary requirement.
    I mean, you have got the message-makers, if you will, the 
marketeers. And I am not sure who you were speaking about, but 
we certainly have fabulous marketers in the U.S. And they are 
very sophisticated, take advantage of psychological studies and 
the like. But they know the culture, so they don't even have to 
think about that. Then you have people who know the culture, 
and we have people who, well, do know the culture, but they are 
not the marketers.
    And then there actually is an expertise on the use of the 
medium: T.V. or Internet or radio. And they are all different. 
So if you are a radio person and not a T.V. person and you are 
not an Internet--I mean, you can be, but they are different. So 
I think you really need to have all three put together.
    Now, whether you use an FFRDC or not, open question. But I 
would make the point that Dr. Wells made before, that you 
really also do need to connect into the policy people, because 
if it is not connected to the policy, you are just lost out 
there.
    I mean, one of the difficulties that contractors always 
have if they have a, I am going to call, the statement of work. 
And, you know, they are in good faith. And they work to the 
statement of work. But in the meantime, the policy is changing, 
things are happening and the like. And it is hard for them to 
be as flexible.
    So having the capacity to be inside the government while 
you are trying to have this agility is, I think, enormously 
important. FFRDCs have that, to some extent.
    Dr. Wells. I would think that one would perhaps be better 
focusing on the commercial world rather than the entertainment 
world. And I say this only because--and I am speaking with 
absolutely no personal expertise in the area. But there have 
been a number of very successful campaigns for U.S. products 
that have been sold in the third world or in foreign markets. 
But there have also been a lot of very successful television 
shows and cable whatever which are wildly popular but convey 
the U.S. in not necessarily the view we would like to see the 
U.S. conveyed in.
    And so, at least when you have the economic incentive to 
wind up with the product being sold and the intent that you are 
trying to deliver, there is that feedback mechanism that may 
not be the case in a purely entertainment environment.
    Mr. Thornberry. Dr. Zalman, I think you make a very good 
point about narrative, and particularly in the Muslim world, 
the narrative that stretches back centuries, which we are not 
used to thinking in those terms.
    I am interested to know, in your interactions, have you 
found places in the U.S. Government you think that have a good 
understanding that there is a narrative stretching back 
hundreds of years, and that we have to take that into account 
in what we try to do?
    Dr. Zalman. I want to understand your question. Do you 
mean, are there examples in our own----
    Mr. Thornberry. What I am really trying to understand is to 
what extent--my view is that there are pockets of deep 
understanding in the government but that it is not very 
widespread and that often this understanding of a long 
historical narrative, which plays a much greater role in other 
cultures than it does in our own, that understanding does not 
translate always into policy decisions or into communications.
    And I am just curious as to your experience, what you have 
found in dealing with government entities, positive and 
negative.
    Dr. Zalman. Instead of addressing length of historical 
experience, I might use the concept of stakeholder. Who 
understands the concept of what it means to actually be engaged 
as a stakeholder?
    And I would say, to that end, I would have to think a 
little bit more about where there are institutional pockets, 
because I think that they exist. And I would like to get back 
to you on that. But in terms of individual, I see them 
everywhere.
    And I will use myself as an example. I am a stakeholder in 
an old American story that goes back to the 17th century. I 
think of my past as starting at Plymouth Rock. That is not a 
reflection of the truth of my family, which arrived much more 
recently. But I engage and am a stakeholder in perpetuating 
this history.
    And I think it is very possible to easily make people 
working in the government and these institutions simply self-
conscious holders of their own experience, and that that is 
transferable, that that is a kind of portable framing.
    And it can be said in a more sophisticated way than I just 
did, if necessary.
    Does that answer the question?
    Mr. Thornberry. Yes. I think it is just a challenge for us, 
because there are some differences in culture. And, as you said 
earlier, you can't look at everybody who speaks Arabic as one 
monolithic thing, or all the Muslim world as one monolithic 
thing, and all we need is a glitzy commercial to go out there 
and say how great we are, and it is going to translate into any 
degree of effectiveness.
    Dr. Zalman. Right.
    Mr. Smith. Could----
    Dr. Zalman. But you----
    Mr. Smith. Go ahead.
    Dr. Zalman. But you can go out and go, why is this 
contemporary community--whether it is a national community or a 
segment of a national community--why are they, say, 
stakeholders or engaged in a certain historical narrative of 
themselves? And then you can speak to that.
    Mr. Smith. Okay. I want to follow up and ask a little bit 
about exactly what the attitudes are about America out there.
    And we all have our answers for it. I mean, there is 
widespread agreement that, particularly in the Islamic world 
but even more broadly, opinions about America are worse now 
than they were pre-9/11 and certainly fading in the last, you 
know, 20 or 30 years. And it has been a rather precipitous 
drop.
    An example I think I have used before this committee before 
is I remember reading Thomas Friedman, ``From Beirut to 
Jerusalem,'' talking about when the Marines showed up in 
Beirut. And I read this book post-9/11 and was just staggered 
by the fact that when the Marines showed up in Beirut, the 
reaction was very positive in Lebanon amongst the Muslims as 
well as the Christians. There was the feeling that if America 
is there, things must be getting better. And this is 1983. Hard 
for me to imagine too many places, you know, certainly in the 
Islamic world, where some Marines could show up at this point 
and have that same reaction.
    And certainly, you know, day after 9/11, there was a 
certain amount of sympathy for us out there that we seem to 
have lost in the last five or six years. And I think, you know, 
certainly I have my answers for how that came about. But it is 
three people who track this stuff.
    And, I mean, this is a starting point. If we are going to 
change these attitudes, what are the attitudes? How did they 
come about?
    And I understand that, oh, it is probably different. There 
is a full history in Pakistan. I just got back from a trip 
there. And I have a much better understanding about their 
attitude toward us that go back to stuff that happened in the 
1960's and elsewhere. It varies from country to country. I get 
that.
    But in the broad category, or if you want to take it down 
to a specific, you know, why are we having such trouble winning 
this PR war? What are we doing? What are the reactions? What 
are the feelings that people have toward us? How can you sum up 
the reasons for the anti-Americanism that we are talking about?
    Dr. Wells. You know, there are two broad arguments. And I 
know you know this. They come in the category of ``they hate us 
for what we are'' and ``they hate us for what we do.''
    In the ``hate us for what we are,'' I think that is limited 
to a very, very small group of what I would call militant 
radical, you know, al Qaida types. They hate us--and I don't 
even know they ``hate'' us is the right word--but not with us 
for what we do goes a lot more to policies and a view that our 
policies are not advancing their interests.
    And there are certain hot-button issues in that world 
which, whether we choose to believe it or not, do seem to make 
an issue. One, obviously, is the Middle East peace process, 
which has stalled for a long time now. Another was not so much 
necessarily the invasion of Iraq, but the fact that it has gone 
very poorly. So the consequences are difficult.
    But, you see, when we go into different parts of that 
world--you have been to Pakistan. You know the relief effort 
got widespread approbation. The relief effort with respect to 
the tsunami got widespread approbation. There are certainly 
places where we are able to work very capably.
    So I think that, and in my opinion--and I defer to my 
colleagues here at the table if they disagree--I do think that 
our broad message, which we all talked about--you know, 
democracy, freedom, human rights, social openness, economic 
opportunity--really still resonates broadly in their world, but 
they are not sure that we mean it.
    And I think the last thing I would say is I think we have 
to do a lot more listening. I think that was mentioned by each 
of the other speakers. If you want to understand the Middle 
East, it is good to drink a lot of tea. You know, it is a 
metaphor, of course. But it is good to sit and talk and listen. 
And they have a lot to say.
    Mr. Smith. And one specific aspect of that, you mentioned 
that, I think the perception is that America impacts the rest 
of the world. You know, we just do because of our size and 
scope in a variety of different ways. And the perception is 
largely that we are impacting it in a way that is negative to 
the rest of the world.
    And one of the concerns that I have had--you know, 
obviously within our foreign policy, within our military 
policy, we are supposed to pursue our own interests. This is a 
point that Mr. Bolton, amongst others, have made about the 
process of the United Nations (UN) and other international 
institutions. But in so doing, if that is our message, and we 
are more invested in winning over the rest of the world and 
most other countries--if that is our message that basically we 
are out there trying to pursue our own interests, we 
fundamentally undermine ourselves.
    There has to be some piece of that message that says we 
want to do good for you as well. And I think we have really 
lost that; because I think post-9/11 there was that attitude of 
we have been wronged. Therefore whatever we do is justified. 
And I think that has sort of accelerated some of the trends out 
there of people feeling like that U.S. is not particularly 
interested in what is in the best interests of Pakistan or Iraq 
or any other country out there.
    And, you know, if we are serious about winning the hearts 
and minds, we have to sometimes put our, you know, short-term 
interests--one of you mentioned short-term versus long-term--
put our short-term interests on the back burner and desire to 
pursue that long-term interest of how we get the rest of the 
world to view us in a more positive way.
    Dr. Wells.
    Dr. Wells. I think a couple things. First of all, the words 
are important. And I was looking about a year ago to co-author 
an article with a Jordanian businessman on the use of 
information communications technologies for promoting 
opportunities in the Arab world for employment. And in the 
course of this, democracy came up.
    And he basically came back very quickly and said, ``Please 
let us not use that term in this article, because it has a 
connotation in the Arab world that is not necessarily 
advantageous to the image that America wants to promote. If you 
want to say participatory government to enhance people's 
opportunities or things like that, that would be terrific. But 
the phrase democracy in and of itself has a cache associated 
with it.''
    And the second piece is historically, anytime we have a 
dramatic imbalance of power, whether it is Britain's role as a 
balancer of continental powers, over there is an inherent 
tendency of the others to form coalitions to restore that 
balance. And so, whatever our message, all that does is make 
our environment more complicated and more difficult to restore 
the image. I think that is just a natural consequence of 
international relations we need to take into account.
    And the third, as somebody pointed out at the symposium 
this morning, during the Cold War, the Soviet Union in many 
respects was almost an ideal enemy. One could point to the KGB. 
One could point to this and say well, them versus us. You know, 
clearly this is the way most people would want to go. We don't 
have that clear-cut opponent now. Again, it is a much more 
difficult environment for us to make the case.
    So I think irrespective of what we do versus what we are, 
there is an environment there that complicates our ability to 
get our positive message across.
    Mr. Smith. And, Dr. Zalman, I want to ask you one 
additional question. In your prepared remarks, you talked about 
not trying to, sort of, create our own narrative to counter 
existing narratives in the places we are trying to persuade, 
but sort of feed into the narrative, which I think makes a 
great deal of sense; because you are then, you know, feeding 
into cultural understandings that are already there, instead 
of--I mean, there is a limit to what marketing can do. You 
can't come in and, you know--you really can't sell iceboxes to 
Eskimos, cliche notwithstanding. So I think that is a good 
idea.
    Can you expand upon that particular idea, an example of how 
we could do that to better promote ourselves?
    Dr. Zalman. Sure. I am going to borrow one from the paper 
that I provided you before.
    A couple of years ago, there was a very big flap over an 
article that showed up in Newsweek and found its way to 
Pakistan about a Koran having been thrown into a toilet at 
Guantanamo Bay. This led subsequently, or was structured as we 
narrated it, to have led to very big demonstrations across the 
Islamic world.
    Mr. Smith. Turns out I don't think it actually happened, by 
the way. But it was just a side note.
    Dr. Zalman. It actually was explained to me by one of the--
anyway----
    Mr. Smith. Correct. Yes.
    Dr. Zalman. That is not exactly what happened.
    Mr. Smith. Right.
    Dr. Zalman. But it actually--it doesn't matter.
    Mr. Smith. It doesn't matter, no. I agree with you on that 
point. But----
    Dr. Zalman. So the official response to this was two-fold. 
One was the United States respects Islam. We wouldn't do--we 
respect other religions. And the other one, hopefully was so 
negligent, but that is the reason why I can't remember it right 
now. But there was not a very big response.
    But if you looked and examined, as I had the opportunity to 
do then, to where this started in Afghanistan, there were 
actually a number of local responses. For example, a local 
sheikh who said, wow, this is in Afghan. We don't behave this 
way. We don't protest in this way. There is foreign provocation 
here. They were responding to a local set of circumstances 
between Afghanistan and Pakistan. There was an official 
response from Hamid Karzai, who said wow, look at this 
incipient democracy. This is so great. We have protests now.
    There was a response among the population to other events, 
Abu Ghraib, et cetera. And they weren't really responding to 
something that was Islamic per se but to a story about human 
rights on a universal human rights and a series of events that 
had led up to that.
    I think that there were ways probably, if those stories had 
been available and had been followed at that time, that more 
acute and precise responses coming from the State Department 
and perhaps elsewhere could have been made that would get at 
what was actually being said and would hook into some of the 
ways in which local populations were themselves already 
addressing the situation.
    Mr. Smith. Instead of trying to go----
    Dr. Zalman. Yes.
    Mr. Smith [continuing]. No, this is wrong----
    Dr. Zalman. Right.
    Mr. Smith [continuing]. ``America would never do such a 
thing.'' You could sort of feed into it and find narratives 
that fit with the need to narrative. That is a great example.
    And then one final question in terms of policy. And I am 
trying to get an idea for, you know, getting outside the 
messaging for the moment. And, again, policy-wise if there were 
two or three things that we could change, from a policy 
perspective, that would then help us deliver the message, 
because I am mindful of the fact that--I have a great example 
from my brief career in the legal field. Looking at a case one 
time with an attorney who warned me before we started that we 
had some bad facts--which, I love that. ``It is not that we are 
going to lose. It is not that we are wrong. We just got some 
bad facts. We got to work on those.''
    Well, we have some bad facts at the moment, you know, in 
terms of the U.S. effort, particularly in the Islamic world. 
You know, certainly that is what is going on in Iraq.
    But there is a whole, you know, phrasing of the ``global 
war on terror.'' There is the whole tendency of American 
policymakers to use the words ``Islamic terrorist.'' I mean, to 
my mind, in this whole battle, you know, we ought to keep the 
word ``Islam'' out of how we describe al Qaida. It gives them 
credibility in the Islamic world that we shouldn't be doing.
    But I also stopped at Great Britain on my trip. And we 
talked about the global war on terror, old phraseology. Is that 
the right way to do it?
    You know, if you had just two or three policy things, if 
you are the messenger, we say to you, ``Okay, go out there, 
sell America to the Islamic world,'' you come back to us and 
say, ``Okay, I can do that, but you have to help me with a 
couple of things. Here is a couple policies that I think you 
ought to change to help us with that messaging.''
    What are the things that you would point toward?
    Dr. Wells. I think one of the points Under Secretary Hughes 
made this morning was that she is actively working to eliminate 
the religious terminology in the U.S. Government 
pronouncements--to make them religion-neutral.
    And so I think that is very close to what--in fact, she 
said she has taken to calling a lot of the suicide bombers and 
whoever ``death cult''--the point is their only message is 
death--and leaving out the Islamic whatever.
    Mr. Smith. I think that is a great idea.
    Mr. Kramer, Dr. Zalman.
    Mr. Kramer. I think you have to jump into some of the 
really difficult issues in a more effective way.
    One is, I think that if you want to have good messages, you 
have to be thought of as a partner. If you want to be a 
partner, you have to have a partnership. And I think we need to 
think hard about how to create partnerships with specific 
countries and the perception then of the partnership with the 
Arab world as a whole.
    There is a lot of economic difficulties--not in every 
state, because some of them are fairly rich, but in quite a 
number. And we might look hard at expanding our capabilities 
there in the economic arena. It is not an easy sell, I am sure, 
to the American public. Foreign aid has never been an easy 
sell. But I think----
    Mr. Smith. Well, it should be. I mean, following up with 
something Mac said earlier, we talked about how we haven't put 
the resources in, except for the Defense Department. We talked 
about how, you know, by and large, from a military standpoint, 
our military has been successful in Afghanistan and certainly 
they were successful in Iraq in toppling Saddam Hussein. We 
have targeted a large number of al Qaida members successfully. 
You know, but the public diplomacy piece hasn't been so good. 
And you can look at, you know, Defense Department budget, State 
Department budget over the same period. And it is not hard to 
see. So I think that resources point is very well made.
    And whether it is an easy argument for the American public 
or not, we have to make it. You know, it is just as important, 
arguably more important, in keeping this country safe that we 
upgrade our public diplomacy and our commitment to the rest of 
the world, in terms of the support you are talking about, as it 
is that we, you know, better fund our troops to fight the war.
    Dr. Wells. Second point I would make is I am fully in 
support of what is being done for the expected exchange 
programs and various other interactions with other publics. The 
difference is I would probably increase it by about 10 times.
    And I would certainly look hard at reducing some of the 
visa requirements. You know, we have put them on for good 
reasons. There are people who are out to harm the United 
States, no question about that. But at the same time, we have 
reduced some of the flow into this country. And I think we need 
both increased flow out and more flow in.
    Now, that is a long-term kind of activity. In my government 
service, I had the International Military Education and 
Training Program, IMET, underneath me both times. And that is 
also a long-term activity. And it was dollar-for-dollar, 
universally thought of as, essentially, the most valuable thing 
we did. I think these exchange programs have the same 
potential. And I think they ought to be substantially, 
substantially increased.
    Mr. Smith. Dr. Zalman.
    Dr. Zalman. I want to draw on one of the very good ideas I 
heard at a conference recently that I referenced in the written 
testimony at the East-West Institute on violent extremism and 
stopping it or forestalling it. And that was that U.S. 
officials and policymakers are not seen as condemning all forms 
of extremism equally. And there is a perception globally or 
elsewhere that there is a real selective condemnation of that 
violent extremism committed by Muslims and by Islamic actors.
    And so, there should be attention to making sure that they 
both do and are seen condemning extremism wherever it takes 
place and by whichever parties, perhaps especially in the realm 
of religious actors or actors saying that they act in the name 
of religion.
    Mr. Smith. You answered all the questions I had.
    Mac, do you have anything further?
    Well, thank you.
    Dr. Wells. May I respond just to Congressman Thornberry's 
question earlier about the source of expertise in the 
government?
    I think one of the truly spectacularly successful uses of, 
really, anthropology in support of government policy was the 
World War II set of studies that went on in Germany and Japan 
that sort of led to Ruth Benedict's Chrysanthemum and the Sword 
and the decisions to retain the emperor and really an 
understanding of Japanese culture that wouldn't have been in 
place without that.
    And that was not something you would find within the 
government, even within the foreign service officers who had 
served out there, but actually went out to anthropologists and 
academics and brought that expertise together.
    So this would, sort of, argue either for the, sort of, ad 
hoc task force or focused task force that Mr. Kramer talked 
about you might bring together for particular purposes. But 
that would be my thought on that.
    Mr. Smith. Is there anything else? No one else?
    Again, thank you very much. It turned into a longer 
afternoon than you expected, and I appreciate your patience in 
sticking with us.
    And last, I would like to stay in touch. We are going to be 
working on this for quite a while, and your expertise will be 
helpful to us in the future, I am sure.
    So thank you for testifying today and for your time.
    Mr. Kramer. Thank you very much. I appreciate it.
    [Whereupon, at 5:03 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             July 11, 2007

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 11, 2007

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>

</pre></body></html>
